IN THE SUPREME COURT OF THE UNITED STATES
No.19-703

BARBARA NINA DAVIS
, Petitioner,
Vv.
MTGLQ INVESTORS, LP,
, Respondent.

CERTIFICATE OF SERVICE

I, John J. Anastasio, counsel for the petitioner Barbara Nina Davis certify
that on this 20th day of March 2020, I caused three copies of the Petition for
Rehearing on Petition for Writ of Certiorari to be served under Rule 29.3, by
prepaid first-class mail on the following counsel:

Brian A. Wahl, Esq.

Bradley Arant Boult Cummings LLP
1819 5th Avenue North

One Federal Place

Birmingham, Alabama 35203

Email: bwahl@bradley.com
Attorney for Respondent

further certify that all parties required to be served have been served.

D ZO

J _ AN 0

Suite 203

3601 South East Ocean Boulevard
Stuart, Florida 34996

(772) 286-3336

Email: ESERVICE@PSLLAW.NET
Counsel for the Petitioner
